     Department of Homeland Security




       FEMA Should Recover $1.9 Million of Public 

     Assistance Grant Funds Awarded to the Hancock 

      County Utility Authority — Hurricane Katrina 





DA-13-09                                    February 2013

                                        OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security
                                                                  www.oig.dhs.gov


                                                     FEB 1 5 lOll


MEMORANDU M f OR '                   Major P. (Phil) May
                                     Regiona l Administrator, Region IV
                                     Federal Emergency Management Agency

FROM:                                D Michael      Bea~       1!u. ;.4?y_.rU--
                                     Assi51ant   Inspeg~~'
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Should Recover $1.9 Million of Public A~$i$tance Grant
                                     Funds Awarded to the Hancock County Utility Aut hority-
                                     Hurrican e Katri na
                                     FEMA DiS<!sler Number 1604-DR-MS
                                     Audit Re po rt Numb er DA-13-09

We au dited Public A~s istan ce (PAj fund s ~warded 10 the HanCOCK (ou nty Utility Authority
(Authority) In Waveland, Miss issippi (FIPS (od e 04S-U P37K-00). Ou. audit objective was to
d ,,"l~mine whether the Autho rity a(counted for an d elqlen ded Federal Eme rgency
Management Agenq (FEM A) fund s according to Federal regulations and FEMA guidelines.

The Authority received a PA award tOialing S2_9 million from the Mississippi Emergency
Ma.nagement Age nq (St<JI e), a f EMA grantee, for d~ma8es resuhlng from Hurricane Katrina,
which occurred in Au gu'il 2005. The award provided 100 pe rcent FEMA funding for emergenq'
protect IV,," measures and permane nt rep ~lrs to bui ldi ngs and facilities. The award consIsted of
10 large projects and 8 5mall p,oJects. 1

We a udited four large projects with awards tou ling $2 .3 million (see Exhibit. Schedule of
Projects Aud ited). The audit cove.ed th e period of August 29, 2005, 10 April 19, 2012, du rin g
which the Authority received $2.3 milliOM In FEMA fu n d~ for the four projects, At the tim e of
ou r aud it, the Authority had completed work on all awarded projects and had submined if final
dalm to the State for all project expendit ures.

W e cond ucted thiS pe rformance audit between Apro' and October 2012 pursuant to the
IrupectorGenero/ Act of 1978, il5 amended, and according to generallv accepted governmen t
;ludlling standards. lboSf' standards require that we plan and perform the ;ludlt to obtain
suffic ient, approp riate evidence to provide a feasonable basis for our findings and conclusions


'federa l regulallon. in ~fle<l .t th o Ii "", of Hurriuoe ~Ilrin. WI I"" I.rg" ~o}l:<t th'es hGid at $55,500.
www.oig.dhs.gov
                                                                                                 01l-lHI9
                                                 

                                OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 


based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
Authority, State, and FEMA personnel; reviewed the Authority’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed
other procedures considered necessary under the circumstances to accomplish our audit
objective. We did not assess the adequacy of the Authority’s internal controls applicable to its
grant activities because it was not necessary to accomplish our audit objective. However, we
gained an understanding of the Authority’s method of accounting for disaster-related costs and
its policies and procedures for administering activities provided for under the FEMA award.


                                       RESULTS OF AUDIT

FEMA should recover $1.9 million of grant funds awarded to the Authority. The Authority did
not (1) separately account for project expenditures as required by Federal regulations, (2) fully
comply with Federal procurement requirements when awarding contracts totaling $1,888,228
for permanent work, or (3) have adequate documentation to support $14,278 of contract costs.

Finding A: Project Accounting

The Authority did not separately account for project expenditures as required by Federal
regulations. According to 44 CFR 206.205(b)(1), large project expenditures are to be accounted
for on a project-by-project basis. Further, 44 CFR 13.20(b)(2) requires grant recipients to
maintain accounting records that adequately identify the source and application of funds for
federally sponsored activities. The Authority recorded disaster expenditures and receipts
within its operation and maintenance account, which also contained non-FEMA-eligible
expenditure and receipt transactions. The account identified entries for FEMA expenditures
and receipts as such, but did not separately identify all expenditures and receipts by project. As
a result, individual project receipts and expenditures could not be readily identified and traced
to supporting documentation without direct assistance from Authority and State officials. This
condition increased the risk of receipts and expenditures being duplicated among projects.

Authority Response. Authority officials agreed with this finding, saying that they are working to
separately account for project expenditures.




www.oig.dhs.gov                              2                                    DA-13-09
                                OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security 


Finding B: Contracting Procedures

The Authority did not comply with Federal procurement requirements when awarding
contracts valued at $1,888,228 for permanent work under Projects 7410, 8099, and 8887.
However, the Authority did properly comply with Federal procurement standards when
awarding contracts for diesel generators under Project 6685. Federal procurement regulations
at 44 CFR 13.36 required the Authority, among other things, to—

   •	 Conduct all procurement transactions in a manner providing full and open competition
      except under certain circumstances. One allowable circumstance is when there is a
      public exigency or emergency for the requirement that will not permit a delay resulting
      from competitive solicitation. (44 CFR 13.36(c)(1) and (d)(4)(i)(B))

   •	 Take all necessary affirmative steps to ensure that minority firms, women’s business
      enterprises, and labor surplus area firms are used, when possible, during the
      procurement process. (44 CFR 13.36 (e)(1))

   •	 Perform a cost or price analysis in connection with every procurement action, including
      contract modifications, to determine the reasonableness of the proposed contract price.
      A cost analysis is required when adequate price competition is lacking. (44 CFR
      13.36(f)(1))

In addition, the FEMA Public Assistance Guide, FEMA 322, October 1999, p. 39, specifies that
contracts must be of reasonable cost, generally must be competed, and must comply with
Federal, State, and local procurement standards.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case­
by­case basis (44 CFR 13.6(c)).

Minority Firms, Women’s Business Enterprises, and Labor Surplus Area Firms Were Not
Adequately Considered

The Authority could not provide evidence that it took affirmative steps to include minority
firms, women’s business enterprises, and labor surplus area firms in its bid process for contract
work valued at $995,185 (Projects 8099 and 8887) for electrical repairs to the wastewater
treatment plant. Authority officials said that they believed that when they advertised projects
in the newspaper, everyone had an equal chance to bid on the work. However, in addition to
normal Federal contracting competitive procedures, 44 CFR 13.36 (e)(2) lists some additional
steps that should be taken to provide opportunities to minority firms, women’s business
enterprises, and labor surplus area firms. Authority officials also said that this requirement may
have been met by the engineering firm they hired to draft bid advertisements. However,
Authority officials did not provide any evidence to support their assertion. As a result, we

www.oig.dhs.gov                             3	                                    DA-13-09

                                OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security 


concluded that the Authority did not take affirmative steps to give such business enterprises
opportunities available to them under Federal regulations to participate in federally funded
work. Therefore, we question the $995,185 claimed for the contract work.

Authority Response. Authority officials agreed with this finding, stating that they understood
our position, given that the contracts in question were not awarded under exigent circumstances.

Cost/Price Analysis

The Authority did not perform a cost or price analysis when procuring emergency contract work
valued at $907,321 (Projects 7410 and 8099) for electrical repairs to the wastewater treatment
plant. A cost or price analysis is required in connection with every procurement action,
including contract modifications, to determine the reasonableness of the contractor’s proposed
price (44 CFR 13.36(f)(1)).

Under emergency procurement procedures, the Authority hired a contractor who had done
recent work at the plant as a subcontractor to make the emergency repairs. According to
Authority officials, the contractor was hired because of the contractor’s familiarity with the
plant operations. However, the Authority did not perform a cost or price analysis to determine
the reasonableness of the contractor’s proposed price. Authority officials said that during an
Authority Board of Directors meeting held on September 5, 2005, the contractor was told to do
whatever was necessary to get the plant running, and a cost or price analysis was never
discussed. Federal regulations require a cost or price analysis in connection with every
procurement action, including those awarded under exigent circumstances. Therefore, we
question the $907,321 awarded for the contract work because FEMA has no assurance that the
costs were reasonable. Because this amount includes $14,278 from Project 8099 (Finding C
discussed below, unsupported costs), the net amount we are questioning is $893,043.

Authority Response. Authority officials agreed that they did not perform a cost or price analysis
for the emergency work. However, the Authority disagreed with our position that FEMA should
disallow the costs. Authority officials said that they feel it is an unfair requirement because it
was not feasible to perform a cost/price analysis due to the chaotic nature of the emergency
situation. The Authority also claimed that the U.S. Army Corps of Engineers and Authority
Board members told the contractor to, “Do what it takes to get the plant running.”

Office of Inspector General (OIG) Response. The Authority was required to comply with Federal
grant administrative requirements as a condition of obtaining its FEMA award. Those
requirements necessitate that a cost or price analysis be performed in connection with every
procurement action. Additionally, 44 CFR 13.43(a)(2) states that if a grantee or subgrantee
materially fails to comply with any term of an award, whether stated in a Federal statute or
regulation, an assurance, a State plan or application, a notice of an award, or elsewhere, the


www.oig.dhs.gov                              4                                    DA-13-09

                                   OFFICE OF INSPECTOR GENERAL

                                     Department of Homeland Security 


awarding agency may disallow (that is, deny both use of funds and matching credit for) all or
part of the cost of the activity or action not in compliance.

Finding Summary

Based on the Authority’s procurement actions, FEMA has no assurance that the Authority paid
a fair and reasonable price for the contract work and that minority firms, women’s business
enterprises, and labor surplus area firms were provided opportunities, to the extent practical,
to participate in federally funded work. As a result, we question a total of $1,888,228 of
contract work that was not procured in accordance with Federal requirements, as shown in
table 1. Although Authority officials claimed a lack of knowledge of the Federal procurement
requirements, improper contracting should have been identified during the State’s and/or
FEMA’s review process.

       Table 1. Questioned Costs for Federal Contracting Procedures
                                                                                Minority/       Total
        Project                                  Amount        Cost or Price    Women/         Amount
        Number              Project Scope        Awarded         Analysis      Labor Firms    Questioned
         7410     Southern Regional Wastewater    $848,662        $848,662               $0     $848,662
                  Treatment Plant Phase 2
                  Electrical Repairs
         8099     Southern Regional Wastewater       623,685         44,381        480,085       524,466
                  Treatment Plant Phase 3
                  Electrical Repairs
         8887     Southern Regional Wastewater       600,885              0        515,100       515,100
                  Treatment Plant Remaining
                  Electrical Repairs
         Totals                                  $2,073,232       $893,043       $995,185     $1,888,228


Finding C: Unsupported Costs

The Authority did not have adequate documentation to support $14,278 of contractor time-
and-material charges claimed under Project 8099. Cost principles at OMB Circular A-87,
Attachment A, Section C.1.j, state that a cost must be adequately documented to be allowed
under Federal awards. Further, as stated in FEMA’s Policy Digest (FEMA 321, October 2001, p.
20), applicants must carefully document contractor expenses when using time-and-material
contracts.

The contractor billed the Authority $13,043 for subcontractor time-and-material charges for
emergency generator setup. Also, the contractor billed $1,235 for the rental of a bucket truck.
However, the contractor provided only summary invoice data, and the Authority did not require
the contractor to provide additional detailed documentation such as timesheets, materials
invoices, and equipment usage sheets to support the billings. Therefore, we question the
$14,278 of unsupported costs.

www.oig.dhs.gov                                  5                                             DA-13-09

                                OFFICE OF INSPECTOR GENERAL

                                  Department of Homeland Security 




Authority Response. Authority officials agreed with this finding, saying that the contractors had
been contacted but were unable to provide the supporting documentation.


                                      RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Instruct the State to remind subgrantees of their requirement to account
for large projects on a project-by-project basis (finding A).

Recommendation #2: Disallow $1,888,228 of ineligible costs claimed for contracts that were
not procured in accordance with Federal requirements, unless FEMA decides to grant an
exception for all or part of the costs as provided for in 44 CFR 13.6(c) and Section 705(c) of the
Robert T Stafford Disaster Relief and Emergency Assistance Act, as amended (finding B).

Recommendation #3: Instruct the State to remind subgrantees of their requirement to comply
with Federal procurement regulations and FEMA guidelines when acquiring goods and services
under the FEMA award (finding B).

Recommendation #4: Disallow $14,278 of unsupported contract costs (finding C).

Recommendation #5: Reemphasize to the State and FEMA Region IV Public Assistance
personnel the need to review costs claimed by subgrantees for adherence to Federal
regulations and FEMA guidelines (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with the Authority, State, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at the exit
conference held on October 29, 2012. Authority officials’ comments, where appropriate, are
included in the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.


www.oig.dhs.gov                              6                                     DA-13-09

                                OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security 


Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Larry Arnold, Audit Manager; and Rickey Smith, Auditor-in-charge.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                             7                                    DA-13-09

                                     OFFICE OF INSPECTOR GENERAL

                                       Department of Homeland Security 


                                                                                                           Exhibit

                                      Schedule of Projects Audited 

                                    August 29, 2005, to April 19, 2012 

                                    Hancock County Utility Authority 

                                   FEMA Disaster Number 1604­DR­MS 


      Project                                              Amount        Amount       Amount
      Number                   Project Scope               Awarded       Claimed     Questioned   Findings
       6685       Southern Regional Wastewater              $237,760     $237,760            $0
                  Treatment Plant—Two Packaged
                  Diesel Generator Sets
       7410       Southern Regional Wastewater               848,662      848,662       848,662      B
                  Treatment Plant Phase 2 Electrical
                  Repairs
       8099       Southern Regional Wastewater               623,685      679,349       538,744     B, C
                  Treatment Plant Phase 3 Electrical
                  Repairs
       8887       Southern Regional Wastewater               600,885      601,289       515,100      B
                  Treatment Plant Remaining
                  Electrical Repairs
       Totals                                              $2,310,992   $2,367,060   $1,902,506




www.oig.dhs.gov                                        8                                      DA-13-09

                               OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security 


                                                                             Appendix


                                     Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-029)

State
Executive Director, Mississippi Emergency Management Agency
State Auditor, Mississippi

Subgrantee
Executive Director, Hancock County Utility Authority

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                            9                            DA-13-09

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
